No.

Men

3fn tlje

Supreme Court, U.S.
FILED

SEP 2 3 2019
OFFICE OF THE CLERK

Supreme Court of tfje SJnttefc i§>tate£
Alexander Christian Miles,
Petitioner,
v.
United States of America,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
PETITION FOR WRIT OF CERTIORARI

Alexander C. Miles, Esq.
Chairez Law Firm
P.O. Box 1954
Pahrump, NV 89041
(702) 281-0681
acmilesesq@gmail.com
Petitioner

September 23, 2019

RECEIVED
SEP 2 6 2019
guTRCE5M°ETafBCTL,^

1

QUESTIONS PRESENTED
1. Whether the abuse of the writ doctrine or the
AEDPA precludes a successive petition for post­
conviction relief when the government, years after
a defendant’s conviction, amends its criminal
charges to keep him convicted of a completely dif­
ferent crime than what he originally pleaded guilty
to?
2. Whether plea bargaining criminal defendants
deserve the same degree of protection under
contract law as civil litigants who are parties to
commercial contracts?

11

RELATED PROCEEDINGS
United States Court of Appeals for the Tenth
Circuit
•

•

•

United States v. Miles, No. 18-6119, 923 F.3d
798 (10th Cir. 2019)(Published Opinion and
Judgment affirming the district court’s denial
of Dr. Miles’ second petition for a writ of error
coram nobis).
United States v. Miles, No. 13-6110, 553 Fed.
Appx. 846 (10th Cir. 2014)(Order and Judgment
affirming the district court’s denial of Dr. Miles’
first petition for a writ of error coram nobis).
United States v. Miles, No. 12-6011, 546 Fed.
Appx. 730 (10th Cir. 2012)(Order and Judgment
denying Dr. Miles’ application for a certificate
of appealability).

United States District Court for the Western
District of Oklahoma
•

•

United States v. Miles, Case No. 5:06-CR-096HE-1 [Doc. #236](W.D.O.K. June 20, 2018)(Order denying Dr. Miles’ second petition for a writ
of error coram nobis).
United States v. Miles, Case No. 5:06-CR-096HE-1 [Doc. #147](W.D.O.K. December 22,
2011)(Order denying the petitioner’s initial ha­
beas motion under 28 U.S.C. §2255).

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED.........................

1

RELATED PROCEEDINGS.........................

11

TABLE OF CONTENTS...............................

in

TABLE OF AUTHORITIES..........................

vi

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW..................................

1

JURISDICTION........................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED................

1

INTRODUCTION......................................

2

STATEMENT OF THE CASE.................

8

I.

REASONS FOR GRANTING THE
PETITION...........................................

21

A. The current 4-way federal circuit split
concerning the permissibility of second or
successive habeas petitions by federal defendants
merits Supreme Court review
21
B. The Supreme Court’s guidance is needed to
elucidate what circumstances may render the
remedy of an initial §2255 motion inadequate or
ineffective
23
C. Nothing in Prost v. Anderson or the
language of the AEDPA suggests that Congress
intended to impose the AEDPA’s filing restrictions
on coram nobis petitioners at liberty
26

IV

D. A post hoc amendment of a criminal charge
for which a defendant already has served out his
sentence should excuse any neglect under the abuse
of the writ doctrine
28
E. Contract law principles should be
consistently applied to render plea agreements on
par with commercial contracts
30
II. THIS CASE MERITS SUPREME COURT
REVIEW
35
A. The issues presented are recurring and
important because they concern all federal
defendants
35
B. Since this case is not fact bound, it
represents an ideal vehicle for addressing what
circumstances, if any, may justify second and
37
successive collateral attacks on convictions
CONCLUSION

39

APPENDIX, Table of Contents

al

Appendix A, United States v. Miles, 923 F.3d 798
a2
(2019), Judgment and Opinion................
Appendix B, Constitutional and Statutory
Addendum....................................................

al7

Appendix C, Superceding Information.........

al9

Appendix D, Plea Agreement (excerpts).......

a20

Appendix E, Objections to the Pre-sentence
Investigation Report...................................

a23

Appendix F, USCIS Advisory re Visas for
Fiancees of U.S. Citizens..........................

a26

V

Appendix G, Unclassified State re Using DS-160
for K Visa Applications
a31
Appendix H, USCIS Instructions re Affidavits of
Support.......................................................... a33
Appendix I, USCIS Policy Alert re Marriage
Involving Minors.........................................

a37

Appendix J, Annotated New York Domestic
Relations Law Governing the Validity of
Marriages of Minors.................................... a39
Appendix K, Documents Filed with or Issued by
the INS and Consular Visa Section of the
U.S. Embassy to Cambodia
a42

VI

TABLE OF AUTHORITIES
CONSTITUTIONAL PROVISIONS
U.S. Const., amend. V..

1, Appx. B

U.S. Const., amend. VI

1, Appx. B

STATUTES
18 U.S.C. § 1001(a)(3)

8, 13

28 U.S.C. §1254(1)....

1

28 U.S.C. §1651.........

3, 26

28 U.S.C. §2255.........

passim

AEDPA, the Antiterrorism and Effective Death
Penalty Act of 1996, 28 U.S.C. §§2241-55,
Pub.L.No 104-132, 110 Stat. 1241
passim
RULES
Fed.R.Crim.P., Rule 11..

passim

Fed.R.Crim.P., Rule 7(e)

1, 33, Appx. B

REGULATIONS
8 C.F.R. §1003.1(g).............

13

8 C.F.R. §213a.2(c)(l)(i)(A)

14

8 C.F.R. §103.10(b).............

13

AGENCY DECISIONS
Matter of Agoudemos,
10 I.&N. Dec. 444 (BIA 1964)

13

Matter of Balodis,
17 I.&N. Dec. 428 (BIA 1980)

13

Vll

Matter of G
9 I.&N. Dec. 89 (BIA 1960)...........

13

Matter of Manjoukis,
13 I.&N. Dec. 705 (Dist.Dir. 1971)

13

UNITED STATES SUPREME COURT CASES
Class v. United States,
138 S.Ct. 798 (2018)..........................................

33

Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 238 (1944)................

29

Lafler v. Cooper,
566 U.S. 156 (2012)................

30

McCleskey v. Zant,
499 U.S. 467 (1991)................

28, 30

Ricketts v. Adamson,
483 U.S. 1 (1987)....................

30

Santobello v. New York,
404 U.S. 257 (1971)................

30

United States v. Maslenjak,
137 S.Ct. 1918 (2017)............

4,5

United States v. Morgan,
346 U.S. 502 (1954)................

27

United States v. Throckmorton,
98 U.S. 61 (1878)....................

29

UNITED STATES COURT OF APPEALS CASES
In re Dorsainvil,
119 F.3d 245 (3d Cir. 1997)

24

McCarthan v. Dir. of Goodwill Industries-Suncoast,
851 F.3d 1076 (lPh Cir. 2017)
3, 22

Vlll

Prost v. Anderson,
636 F.3d 578 (10th Cir. 2011)..........

passim

Trenkler v. United States,
536 F.3d 85 (1st Cir. 2008)..............

27

United States v. Bradley,
381 F.3d 641 (7th Cir. 2004)............

31

United States v. Bunner,
134 F.3d 1000 (10th Cir. 1998)........

31

United States v. Farr,
536 F.3d 1174 (10th Cir. 2008)........

33

United States v. Gamble,
917 F.2d 1280 (10th Cir. 1990)........

34

United States v. Gammill,
421 F.2d 185 (10th Cir. 1970)..........

18

United States v. Guzman,
318 F.3d 1191 (10th Cir. 2003)........

35

United States v. Harvey,
791 F.2d 294 (4th Cir. 1986)............

31

United States v. Kwan,
407 F.3d 1005 (9th Cir. 2005)..........

27

United States v. McIntosh,
580 F.3d 1222 (11th Cir. 2009)........

18

United States v. Miles,
546 Fed. Appx. 730 (10th Cir. 2012)

1, 17, 18

United States v. Miles,
553 Fed. Appx. 846 (10th Cir. 2014)

1, 19

United States v. Miles,
923 F.3d. 798 (10th Cir. 2019).........

1, 20, Appx. A

IX

United States v. Miller,
891 F.3d 1220 (10* Cir. 2018)......

33

United States v. Perceval,
563 F.App’x 592 (10* Cir. 2014)...

3, 26

United States v. Ricketts,
494 F.App’x 876 (10*Cir. 2012)...

3, 26

United States v. Rockwell Int’l Corp.
124 F.3d 1194 (10* Cir. 1997)......

34

United States v. Sprenger,
625 F.3d 1305 (10* Cir. 2010)......

32

United States v. Trujillo,
537 F.3d 1195 (10* Cir. 2008)......

35

United States v. Vasquez,
515 F.App’x 757 (10* Cir. 2013)...

3, 26

United States v. Wilken,
498 F.3d 1160 (10* Cir. 2007)......

12, 20

TREATISES
Restatement (Second) of Contracts §152 ....

33

Restatement (Second) of Contracts §153 ....

33

Restatement (Second) of Contracts §209(3)

34

LEGAL PUBLICATIONS
Bryan Florendo, Prost v. Anderson and the
Enigmatic Savings Clause of §2255: When is a
Remedy by Motion “Inadequate or Ineffective?”
Denver U. Law Review,
Vol. 89:2, 435 (2012).............................................. 2, 21

X

David Aram Kaiser, Note, United States v. Coon: The
End of Detrimental Reliance for Plea Agreements'?,
32
52 Hastings L.J. 579 (2004)..............................
Dustin B. Benham, Twombly and Iqbal Should
(Finally) Put the Distinction between Intrinsic and
Extrinsic Fraud out of Its Misery,
29
64 SMU L. Rev. 649 (2011)
Julian A. Cook, III, All Aboard! The Supreme Court,
Guilty Pleas, and the Railroading of Criminal
Defendants,
75 U.Colo.L.Rev. 863, 889 (2004)........................... 32
Lauren Staley, Inadequate and Ineffective? Factual
Innocence and the Savings Clause of §2255,
81 U.Cin.L.Rev. 1149 (2013).................................... 25
Melissa L. Tarab: Case Comment,
Suffolk Law Review, Vol. XLIL361, 365 (2009)... 27
Michael D. Cicchini, Broken Government Promises: A
Contract-Based Approach to Enforcing Plea
Bargains,
32
38 N.M.L.Rev. 159 (2008)...................................
Miller, Colin, Plea Agreements as Constitutional
Contracts (July 5, 2017),
ssrn.com/abstract=2997499................................

31

1
PETITION FOR A WRIT OF CERTIORARI
The petitioner, Dr. Alexander C. Miles, respect­
fully petitions this Court for a writ of certiorari to re­
view the judgment of the United States Court of
Appeals for the Tenth Circuit.
OPINIONS BELOW
The Tenth Circuit’s published opinion denying Dr.
Miles’ second petition for a writ of error coram nobis
is reported as United States v. Miles, 923 F.3d 798
(10th Cir. 2019), and reproduced in Appendix A. The
two preceding, unpublished Tenth Circuit orders
denying Dr. Miles’ application for a certificate of
appealability (COA) and first coram nobis petition are
reported as United States v. Miles, 546 Fed. Appx. 730
(10th Cir. 2012), and United States v. Miles, 553 Fed.
Appx. 846 (10th Cir. 2014).
JURISDICTION
The Tenth Circuit rendered its judgment and
opinion on May 3, 2019. This Court has jurisdiction
under 28 U.S.C. §1254(1). Justice Sotomayor has ex­
tended the filing deadline until September 30, 2019.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves U.S. Const., amend. V and VI,
Fed.R.Crim.P., Rule 7(e), and 28 U.S.C. §2255(a), (e)
and (h). These provisions are reproduced in the Con­
stitutional and Statutory Addendum in Appendix B.

2
INTRODUCTION
Following the AEDPA’s1 codification of the abuse
of the writ doctrine, a 4-way circuit split has evolved
regarding the availability of second and successive ha­
beas petitions by prisoners, despite the filing
constraints imposed by 28 U.S.C. §2255(h).
Nine federal circuits have in various ways inter­
preted the ‘savings clause’ of 28 U.S.C. §2255(e) as an
alternate avenue for relief if the remedy by the initial
§2255 motion “is inadequate or ineffective to test the
legality of [the prisoner’s] detention.” Id.2
The Second and Third Circuits provide that
§2255(e) may provide relief when constitutional issues
would arise because a prisoner would have no other
recourse to bring a claim of actual innocence.
Other circuits use an erroneous circuit foreclosure
test, which allows for a second or successive collateral
challenge when the petitioner has not had an unob­
structed procedural shot at presenting his actual in­
nocence claim.
The Ninth Circuit, has adopted a novelty test
when assessing whether a defendant was afforded an
unobstructed procedural shot, which takes into ac­
count (1) whether the legal basis of a petitioner’s claim
arose only after he had exhausted his direct appeal
and first §2255 motion, and (2) whether the law

1. The Antiterrorism and Effective Death Penalty Act of 1996, 28
U.S.C. §§2241-55, Pub.L.No 104-132, 110 Stat. 1241.
2. See generally, Bryan Florendo, Prost v. Anderson and the
Enigmatic Savings Clause of §2255: When is a Remedy by Motion
“Inadequate or Ineffective?“ Denver U. Law Review, Vol. 89:2,
435 (2012).

3
changed in any way relevant to the defendant’s claim
after that first §2255 motion.
The Tenth3 and Eleventh Circuits4 have assumed
the most extreme position by maintaining that
Congress expressly intended to limit second or suc­
cessive motions for post-conviction relief exclusively to
the circumstances enumerated in §2255(h).
In Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011),
the Tenth Circuit provided that the remedy of an
initial §2255 petition is “inadequate or ineffective to
test the legality of [a prisoner’s] detention”5 only in
rare cases, such as when the original sentencing court
has ceased to exist due to the dissolution of a court
martial. Id. at 588.
In its published opinion in this case, and in prior,
unpublished decisions,6 the Tenth Circuit has ex­
panded Prost to incorporate coram nobis petitioners at
liberty, not otherwise subject to the AEDPA. This
amounts to a judicial abrogation of the All Writ’s Act,
28 U.S.C. §1651, since, absent seismic events or court
martials, U.S. courts seldom cease to exist.
However, while the Tenth Circuit in Prost rejects
the rationales employed by the nine pro-access
circuits to justify circumventing §2255(h), it at the
same time invites the Supreme Court and Congress to

3. Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011).
4. McCarthan v. Dir. of Goodwill Industries-Suncoast, 851 F.3d
1076 (11th Cir. 2017).
5. 28 U.S.C. §2255(e).
6. See e.g. United States u. Perceval, 563 F.App’x 592, 594 (10th
Cir. 2014); United States v. Vasquez, 515 F.App’x 757, 758 (10th
Cir. 2013); United States v Ricketts, 494 F.App’x 876, 877 (10th
Cir. 2012).

4
weigh in on what kinds of constitutional violations
possibly could render the initial §2255 remedy
inadequate or ineffective so as to permit a successive
motion for habeas relief.
In this case, the government’s ignorance of its own
immigration laws caused the petitioner, Dr. Miles, to
be charged with, and plead guilty to non-criminalized
conduct in June of 2009. Consequently, he pursued
habeas relief under 28 U.S.C. §2255 in 2011, more
than two years after his conviction, when already
released from prison.
Rather than addressing the merits of his §2255 pe­
tition, the district court and the government, acting in
consort, orally amended the original charging terms
in order to “correct” a purported unilateral or mutual
mistake, and to prevent him from capitalizing on the
government’s “inconsequential” drafting errors. They
did not rescind the existing plea agreement or procure
a new indictment where the alleged errors had been
corrected. Nor was a new Fed.R.Crim.P. Rule 11 plea
colloquy ever conducted. Instead, they claimed that
Dr. Miles, at his one and only June 2009, Rule 11 col­
loquy, should have known that the government, with
the benefit of hindsight, intended to charge him two
years later with a completely different crime, perpe­
trated 7 months earlier than initially charged.7

7. Even as amended post hoc, the government’s accusatory in­
struments still fail to charge an offense, because Dr. Miles’ wife
remained eligible for K-l visa classification pursuant to control­
ling Board of Immigration Appeals precedent, despite her minor­
ity. See n.19, infra; Appx. I (USCIS Policy Alert re Marriages to
Minors); Appx. J (New York Law Governing Validity of Mar­
riages to Minors); United States v. Maslenjak, 137 S. Ct. 1918,

5
The district court then proceeded to deny relief by
enforcing the plea agreement’s waiver provision, since
it would not result in a miscarriage of justice as Dr.
Miles was not factually innocent of the new, modified
charges.
The Tenth Circuit likewise relied on the limited
collateral attack waiver to procedurally bar relief and
deny Dr. Miles’ application for a COA, and first
petition for a writ of error coram nobis.
In his second coram nobis petition, Dr. Miles ad­
vised the Tenth Circuit that the plea agreement’s
limited waiver provision conferred a contractual right
to collaterally challenge his conviction, because the
district court’s sentence exceeded the applicable
guideline range. Undeterred, the Tenth Circuit, this
time around, invoked the abuse of the writ doctrine to
yet again deny relief on procedural grounds. Citing
Prost v. Anderson, the Tenth Circuit contended that
Dr. Miles’ arguments already had been addressed and
disposed of by prior circuit panels, no matter how
erroneously, or should have been raised in his initial
§2255 petition.
Hence, the district court and Tenth Circuit rail­
roaded a defendant, who they admitted was factually
innocent under the original, albeit “inadvertently”
“mistaken” charges, by procedurally whipsawing him:
First by the unwarranted application of an invali­
dated collateral attack waiver, and second, by using
the abuse of the writ doctrine as a subterfuge.

1928 (2017)(eligibility for the relevant immigration benefit ne­
gates materiality of a false statement rendered in the immigra­
tion context).

6
The procedural impediments imposed by the
courts below rendered the remedy under §2255(a) and
the first coram nobis petition all but illusory. The
question presented for review has thus been crystal­
lized to whether the post-conviction amendment of a
defendant’s criminal charges renders the remedy of an
initial §2255 petition inadequate or ineffective under
the AEDPA, as expanded by the Tenth Circuit’s
published opinion in this case to incorporate former
defendants at liberty.
Equally worthy of clarification, even if relegated
to dicta, is the interrelated question whether contract
law principles should govern the enforcement of plea
agreements by criminal defendants to the same extent
as contracts in the commercial arena. The Supreme
Court has never directly addressed whether contract
law should govern plea agreements, but merely
suggested that it may be applied by analogy.
Since more than 95% of federal indictments are
resolved by guilty pleas, only a consistent application
of contract law doctrine to plea agreement disputes
can safeguard the integrity of the plea bargaining
process and ensure its continued vitality.
Under contract law principles, any unilateral or
mutual mistake, necessitating the post hoc amend­
ment of the crime originally charged, would entitle de­
fendants like Dr. Miles to rescind their plea agree­
ment and vacate their conviction. The frustration of
purpose doctrine would compel the same result; as
would the material breach of a fully integrated plea
agreement by the post hoc amendment of the original
criminal charges, in blatant violation of the parol evi­
dence rule. Any objections by the government would
be waylaid by its unclean hands, due to its complicity

7
in the post hoc “correction” of its conceded charging
errors.
Since this case exclusively revolves around
criminal procedure, it represents a clean and ideal
vehicle for addressing the current circuit split
regarding successive habeas petitions by federal
defendants. Moreover, this case is emblematic of the
pervasive disinclination by the federal judiciary to ap­
ply contract law principles to plea agreement disputes
when it would favor criminal defendants. It therefore
also presents a propitious opportunity to settle, once
and for all, whether plea bargaining criminal
defendants deserve the same degree of protection un­
der contract law as civil litigants who are parties to
commercial government contracts.

8
STATEMENT OF THE CASE
On June 24, 2009, Dr. Miles pleaded guilty to
having misrepresented his wife’s age in an im­
migration form, in violation of 18 U.S.C. §1001(a)(3),
pursuant to the particulars contained in a Super­
seding Information, dated June 19, 2009, and a Plea
Agreement, executed June 24, 2009.
At the June 24, 2009 Rule 11 Plea Colloquy, the
government stipulated to the factual basis for Dr.
Miles’ offense, and clarified the extent of the Plea
Agreement’s limited appellate waiver.
At the Rule 11 Colloquy, the District court ac­
cepted the guilty plea and found Dr. Miles guilty as
charged.8
On September 24, 2009, the District court sen­
tenced Dr. Miles to 60 months of imprisonment, in ex­
cess of the applicable 0-6 month advisory sentencing
guideline range.9
The ‘Superceding Information,’10 charged that Dr.
Miles’ offense consisted of “[i]n or about February of
2002” falsely stating to the INS, “on an affidavit in
support of an application for a K1 Visa,” that his
wife “was 18 years of age when he knew she was under
18 years of age.“
The Plea Agreement specified that the making or
using of “a false Affidavit of Support for an Alien

8. Transcript of Pie a of Guilty (hereinafter “R. 11. Colloquy”), Case
No. 06-CR-096-HE [Doc. #90], p.16.11.18-23.
9. In the Tenth Circuit, jeopardy attaches when a defendant is
sentenced pursuant to a guilty plea.
10. Superseding Information, Case No. 06-CR-096-HE [Doc. #63],
Appx. C. [Emphasis added].

9
Fiance Visa application” which contained “a ma­
terially false and fictitious statement * * * that
the age of [Dr. Miles’ wife] was eighteen”11 consti­
tuted the factual basis for the guilty plea.
The Plea Agreement was fully integrated pursu­
ant to an integration clause, which provided that the
written Plea Agreement represented the entire under­
standing between the parties, and that any additional
agreement or modification would be rejected unless in
writing and ratified by both parties:
This document contains the entire plea
agreement between defendant, Alexan­
der C. Miles, and the United States
through its undersigned attorney. No
other agreement or promise exists, nor
may any additional agreement be en­
tered into unless in writing and signed
by all parties. Any unilateral modifica­
tion of this agreement is hereby rejected
by the United States. This agreement ap­
plies only to the criminal violations de­
scribed and does not apply to any civil matter
or any civil forfeiture proceeding except as
specifically set forth. * * * 12
The Plea Agreement waived the 5-year statute of
limitations, and proper venue for the February 2002
false statement offense perpetrated in the Southern
District of New York:

11. Plea Agreement, Case No. 06-CR-096-HE [Doc. #68], par. 2,
Appx. D. [Emphasis added].
12. Plea Agreement, par. 1, Appx. D. [Emphasis added].

10
The defendant waives any claim that venue is
not proper in the Western District of
Defendant also waives all
Oklahoma.
defenses based on the statute of
limitation with respect to Count 1 of the
Information referenced in paragraph 2 of
this agreement.13
Paragraph 8(b) of the parties’ Plea Agreement
contained a limited appellate waiver, whereby Dr.
Miles obligated himself not to:
Appeal, collaterally challenge, or move to
modify •k k k his sentence as imposed by the
Court and the manner in which the sentence
is determined, provided the sentence is
within or below the advisory guideline
range determined by the Court to apply
to this case.14
At the Rule 11 Plea Colloquy, the government
stipulated to the factual basis for Dr. Miles’ guilty
plea:
THE COURT: All right. Mr. Sengel, if you
would, please, question the defendant to
determine whether there's a factual basis for
the plea.
MR. SENGEL: Yes, your Honor. In or about
February of 2002, in New York, did you
make a false affidavit in support of an
application for a K-l visa by SK?
13. Plea Agreement, par. 12, Appx. D. [Emphasis added].
14. Plea Agreement, par. 8(b), Appx. D. [Emphasis added].

11
THE DEFENDANT: Yes, I did.
MR. SENGEL: Did you know at the time you
made the affidavit that it falsely stated SK
was 18 years of age when you knew she
was under 18 years of age?
THE DEFENDANT: Yes.
MR. SENGEL: Did you make the affidavit
voluntarily and intentionally?
THE DEFENDANT: Yes.
MR. SENGEL: And do you admit that the
affidavit was material to the Immigration
and Naturalization Service in that it was
capable of influencing a decision of the
Service?
THE DEFENDANT: Yes.
MR. SENGEL: And do you admit that the
Immigration and Naturalization Service is
part of the executive branch of the United
States government?
THE DEFENDANT: I do.
MR. SENGEL: I have no further questions,
your Honor.
THE COURT: I think that sufficiently
makes out the factual basis for the
offense.
•k

k

k

THE COURT: Well, the bottom line, Dr. Miles,
is did you in fact do what you're charged with
in this superseding information?
THE DEFENDANT: Yes, sir. is
At the Rule 11 Colloquy, the government, under
the direction of the district court, further clarified the
15. R. 11.Colloquy, p.13-14. [Emphasis added].

12
extent of the Plea Agreement’s collateral attack
waiver and the waivers of venue and the statute of
limitations:
THE COURT: I understand there is a plea
agreement with the government in this case.
Mr. Sengel, if you would, please, describe for
the record the principal terms of that plea
agreement, please.
MR. SENGEL: Yes, your Honor.
Pursuant to the plea agreement, the defend­
ant agrees to enter a plea of guilty to the su­
perseding information charging a violation of
Title 18 United States Code, Section
1001(a)(3).
Further, he has agreed to waive any claim
that venue as to that offense is improper in the
Western District of Oklahoma, and further
waive any defense based on the statute of limi­
tations.
The defendant has also agreed to waive his
right to appeal or collaterally challenge
the conviction and the sentence imposed
by the court provided the court does not
impose a sentence above the advisory
guideline range determined to apply.16’17
On September 2, 2009, in objections to the Presen­
tence Investigation Report prepared by the U.S. Pro­
bation Office, Dr. Miles’ counsel confirmed the parties’
16. R. 11.Colloquy, p.ll, 11. 3-18. [Emphasis added].
17. See United States v. Wilken, 498 F.3d 1160, 1168 (10th Cir.
2007)(oral pronouncements by the court or the government at the
Rule 11 colloquy supersede the written provisions of a plea agree­
ment).

13
mutual understanding that Dr. Miles’ offense con­
sisted of having misstated his wife’s age in a Form I864 ‘Affidavit of Support’ in support of his wife’s 1-485
‘Application for Adjustment of Status’ from K-l fian­
cee to conditional lawful permanent resident (CLPR),
in February of 2002.18
By failing to object, the government tacitly agreed
that this represented the factual basis for Dr. Miles’
offense until 2011, when he sought relief under 28
U.S.C. §2255.
The initial §2255 petition & district court
enforcement of the limited collateral attack waiver
In February 2011, after release from prison, Dr.
Miles, sought habeas relief under 28 U.S.C. §2255. He
claimed that he had pleaded guilty to non-criminalized conduct because the age of his spouse was
immaterial under 18 U.S.C. §1001(a)(3). His claim
was based on that controlling Board of Immigration
Appeals (BIA) precedent19 recognizes the validity of
18. See Dr. Miles’ counsel’s ‘Observations and Objections to PreSentence Investigation Report, ’ dated September 2, 2009, par. 3,
23, and 24, Appx. E.
19. Matter of G-—, 9 I.&N. Dec. 89 (BIA 1960)(Voidable state law
marriages of minors are recognized as valid for purposes of
adjustment of K-l visa status); Matter of Agoudemos, 10 I.&N.
Dec. 444 (BIA 1964)(same). See also Matter of Manjoukis, 13
I.&N. Dec. 705 (Dist.Dir. 1971)(Minor parties are eligible for a K1 visa if state statutory law recognizes the intended marriage as
voidable, not void); Matter of Balodis, 17 I.&N. Dec. 428 (BIA
1980)(Even if an intended marriage would be void under state
statutory law, a party will nevertheless qualify for a K-l visa as
long as state case law would recognize the intended marriage as
voidable); 8 C.F.R. §1003.1(g) & §103.10(b)(“Decisions of the
Board of Immigration Appeals, and decisions of the Attorney
General, shall be binding on all officers and employees of the

14
voidable state law marriages of minors for purposes of
adjustment of K-l visa status. Furthermore, the INS
requires only one, single affidavit of support, to be
executed by the U.S. sponsor when the K-l fiancee
applies for adjustment of status following the parties’
U.S. marriage. While the U.S. sponsor of an affidavit
of support must be 18 years or older, no age limit
exists for K-l visa beneficiaries.20-21
Instead of addressing the §2255 claim on the mer­
its, the district court and government, over Dr. Miles’
timely objections, orally altered the original charging
terms, contained in the Superseding Information and
Plea Agreement, and stipulated to by the government
at the Rule 11 Colloquy. This violated the Plea Agree­
ment’s integration clause, which required any subse­
quent modifications to be in writing and ratified by
both parties. It also caused Dr. Miles to stand con-

Department of Homeland Security or immigration judges in the
administration of the immigration laws of the United States).
20. No age limit exists for alien beneficiaries of 1-864 and 1-134
Affidavits of Support: Only the U.S. sponsor must be 18 years or
older. See 8 C.F.R. §213a.2(c)(l)(i)(A). The purpose of an Affida­
vit of Support is to prove that the U.S. sponsor’s income and as­
sets exceed the federal poverty guidelines to prevent the benefi­
ciary from becoming a public charge, not to provide biographic
information. Biographic information about a K-l fiancee is in­
stead submitted in a Form G-325A, which is executed by the
alien beneficiary, not the U.S. petitioner. See generally Appx. H
(USCIS Instructions re Affidavits of Support).
21. Some U.S. Consulates abroad, such as in Phnom Penh, Cam­
bodia, also require the U.S. sponsor to file an 1-134 Affidavit of
Support when the alien fiancee applies for the K-l Visa. U.S.
consulates are however under the jurisdiction of the Department
of State, not the INS or Department of Justice.

15
victed of a different offense, for double jeopardy pur­
poses, than what he had been convicted of 2 years ear­
lier.
When orally modifying the criminal charges, the
government did not bother with procuring a new in­
dictment, or rescinding the existing Plea Agreement
in favor of a new one. Nor was a new Rule 11 Colloquy
ever conducted. Instead, the government and the dis­
trict court contended that Dr. Miles knew, or should
have known, at the original June 24, 2009, Rule 11
Colloquy that, despite the conceded charging errors,
the government actually had intended to charge him
with a completely different crime more than two years
later.
However, when the district court, at the behest of
the government, orally amended the purportedly mis­
taken date of the offense, from February 2002 to July
2001, it also automatically changed the immigration
form in which the false statement allegedly had been
submitted: From an 1-864 ‘Affidavit of Support’ in
support of an 1-485 ‘Application for Adjustment of Sta­
tus’ to an I-129F ‘Petition for Alien Fiancee.’ Hence,
the district court changed not only the date, but also
the factual basis for Dr. Miles’ offense by conflating
the preliminary Form I-129F Petition (which sought
permission to apply for a K-l visa and had to be filed
with the INS in the U.S.), with the K-l visa applica­
tion itself (which had to be filed abroad, at the U.S.
Consulate in Cambodia).
Falsely claiming that the actual K-l visa applica­
tion had been filed with the INS in July of 2001,22 the
22. The actual DS-156K ‘Nonimmigrant Fiancee Visa Applica­
tion’ and the 1-134 ‘Affidavit of Support’ had been filed with the

16
district court insisted that the date of the offense was
undisputed, and that the post-conviction alteration of
the original charges, at most, resulted in a “non-prejudicial” “variance,” undertaken to prevent Dr. Miles
from capitalizing on an “inconsequential mistake”
without impacting his “substantial rights.”23 The
district court then discounted Dr. Miles’ statute of lim­
itations objections: “The defendant waived the statute
of limitations with respect to the charge that he
made a false statement concerning S.K’s age on the
affidavit submitted in support of a K1 fiancee
visa. He did not waive the commission of the offense
restricted to a particular date.”24
Ultimately, the district court denied the §2255 pe­
tition by enforcing the Plea Agreement’s collateral at­
tack waiver, since it would not result in a “miscarriage
of justice” as Dr. Miles was not factually innocent of
the orally modified, new charges.25

consulate of the U.S. Embassy to Cambodia, in November 2001,
and not with the INS Service Center in Vermont in July of 2001.
The INS document filed in July 2001 was an I-129F ‘Petition for
Alien Fiancee’ seeking an 1-797 ‘Notice of Action’ (not a K-l visa)
granting approval to apply for a K-l visa at the U.S. Consulate
in Cambodia at a later date. The 1-797 Notice of Approval was
issued on August 15, 2001, and transferred jurisdiction to the
Department of State and the U.S. Consulate in Cambodia. It was
the U.S. Consulate in Cambodia, that issued the K-l Visa on
November 30, 2001, not the INS. See USCIS Advisory Visas for
Fiance(e)s of U..S. Citizens, Appx. F, a29, par.4; Unclassified
State 00140650, Using DS-160 for K Visa Applications, Appx. G.
23. Order, Dec. 22, 2011, United States v. Miles, Case No. 06-CR096-HE [Doc. #147] (hereinafter “Order”).
24. Order, p.6. [Emphasis added].
25. Order, p.7 & p.9.

17
The Tenth Circuit’s denial of a COA & enforcement
of the limited collateral attack waiver
Relying on the district court’s false factual pre­
mise that the K-l visa application had been filed with
the INS Service Center in Vermont, in July of 2001,
instead'of at the U.S. Consulate in Cambodia, in
November 2001, the Tenth Circuit in 2012 denied Dr.
Miles’ pro se application for a COA by affirming the
District court’s enforcement of the collateral attack
waiver. United States v. Miles, 546 Fed. Appx. 730,
732-34 (10th Cir. 2012).
The circuit panel did however concede that the
government had mistakenly conflated the K-l visa ap­
plication with the application for adjustment of status
when drafting the charging terms of the Superseding
Information and the Plea Agreement. Id. at 731-32.
The panel further acknowledged that, with res­
pect to the original, mistaken charges, to which Dr.
Miles had pleaded guilty and been convicted of, the
INS, pursuant to controlling BIA precedent, in fact
recognized voidable marriages to minors for purposes
of adjustment of K-l fiancee visa status. Id. at 732.
But, since Dr. Miles had lied in multiple docu­
ments submitted in conjunction with his wife’s efforts
to legalize as a K-l fiancee, the panel contended that
the district and appellate court should be at liberty to
pick and choose what offense he ought to stand con­
victed of, even several years after his conviction, in or­
der to correct the government’s original charging er­
rors and salvage the conviction. Id. at 731-32.
Nevertheless, the panel expressed reservations
about the district court’s amendment of the date of the
offense by 7 months (from February 2002 to July of
2001), because it substantially exceeded any temporal

18
amendment heretofore deemed permissible under
Tenth Circuit precedent. Id. at 733.
The panel further explicitly found that the Plea
Agreement’s contractual waiver of the statute of limi­
tations pertained only to a false statement made in
February 2002, and therefore failed to encompass any
earlier false statements made in July 2001. Id. at 733.
Despite these findings, the panel ruled that the Plea
Agreement’s waiver provision obviated any need for
consideration of the otherwise prohibited amendment
of the date of the offense and the bar imposed by the
expiration of the statute of limitations. Id. at 733.26

26. The time of the offense was in fact of the essence under Tenth
Circuit precedent, because the statute of limitations had expired
for both the original offense, charged in June 2009, and the new
offense, charged post hoc in December 2011. See United States
v. Gammill, 421 F.2d 185, 186 (10th Cir. 1970). See also United
States v. McIntosh, 580 F.3d 1222, 1228 (11th Cir. 2009)(the date
of an offense is an essential element of the offense if the offense
occurred outside the statute of limitations).

19
The first coram nobis petition & the Tenth Circuit’s
continued enforcement of the limited collateral attack
waiver
The Tenth Circuit denied Dr. Miles’ first pro se
coram nobis petition by yet again enforcing the Plea
Agreement’s collateral attack waiver, based on the
false factual assumption that the K-l visa application
had been submitted to the INS in July of 2001, instead
of the U.S. Consulate in Cambodia in November of
2001. See United States v. Miles, 553 Fed. Appx. 846,
848 (10th Cir. 2014).
The circuit panel disingenuously claimed that
“Miles himself affirmed both the alleged date and
document in his colloquy with the court establishing
the factual basis for his plea at the plea hearing,” id.
at 848, quoting United States v. Miles, 546 Fed. Appx.
at 731. However, as obvious from the record, Dr.
Miles, at the June 2009, Rule 11 Colloquy, in fact af­
firmed the date as “[i]n or about February of 2002”
(and not July 2001) and the document as a “false affi­
davit in support of an application for a K-l visa”27 (and
not an I-129F ‘Petition for Alien Fiancee’).

27. See R.ll Colloquy, supra pp. 10-11.

20

The second coram nobis petition & Tenth Circuit
invocation of the abuse of the writ doctrine (exeunt the
invalidated limited collateral attack waiver)
In his second coram nobis petition, Dr. Miles con­
fronted the Tenth Circuit with its own precedent28
which invalidated the Plea Agreement’s waiver provi­
sion, because the district court’s sentence exceeded
the applicable guideline range. In response, the Tenth
Circuit instead invoked the abuse of the writ doctrine
to yet again deny relief on procedural grounds. See
United States v. Miles, 923 F.3d 798 (10th Cir. 2019).
In its editorialized opinion, the Tenth Circuit
selectively compiled suitable parts of the rulings by
the two prior appellate panels to reinforce its
contention that all of Dr. Miles’ claims had either
already been considered and disposed of, no matter
how erroneously, or should have been raised in his
first §2255 petition. According to the Tenth Circuit,
the relevant metric under its precedent in Prost v.
Anderson was whether the initial remedy of a §2255
petition had been available at all, not whether relief
had been rendered inadequate or ineffective due to
legal or factual errors.
In the wake of the ‘metrics’ employed by the Tenth
Circuit in Prost and the instant case, this petition fol­
lows.

28. United States v. Wilken, 498 F.3d 1168, see n. 17, supra.

21
I.

REASONS FOR GRANTING THE
PETITION

A. The current 4-way federal circuit split
concerning the permissibility of second
or successive habeas petitions by federal
defendants merits Supreme Court
review.
In 1996 Congress codified the common law abuse
of the writ doctrine under the AEDPA. Following this
codification, a 4-way circuit split has evolved regard­
ing the availability of post-conviction relief for prison­
ers through second and successive collateral chal­
lenges, notwithstanding the filing limitations imposed
by Congress under 28 U.S.C. §2255(h).
Consequently, nine out of eleven circuit courts
have interpreted subsection §2255(e) as an alternate
avenue for relief for a prisoner if the remedy by the
initial §2255 motion “is inadequate or ineffective to
test the legality of his detention.” 28 U.S.C. §2255(e).
This has ultimately led to the current federal circuit
split, ripe for Supreme Court review.29
The Second and Third Circuits provide that the
savings clause under §2255(e) might be available
when constitutional issues would arise because a pris­
oner would have no other recourse to bring a claim of
actual innocence.
Other circuits use an ‘erroneous circuit foreclosure’
test based on actual innocence and retroactivity, and
allow a second or successive collateral challenge when

29. See generally, Bryan Florendo, Prost v. Anderson and the
Enigmatic Savings Clause of §2255, n.2 supra.

22
the petitioner has not had an ‘unobstructed procedural
shot’ at presenting his claim.
The Ninth Circuit has adopted the most liberal
‘novelty’ test when considering whether a defendant
was previously afforded an unobstructed procedural
shot and will consider (1) whether the legal basis of a
petitioner’s claim did not arise until he had exhausted
his direct appeal and first §2255 motion, and (2)
whether the law changed in any way relevant to the
defendant’s claim after that first §2255 motion.
The Tenth30 and Eleventh Circuits31 insist that
textual fidelity requires courts to abide by the congres­
sional intent expressed in §2255(h), which eliminates
any meaningful access to the ‘savings clause’ of
§2255(e) by federal defendants.
To promote uniformity among federal circuits, it
is therefore essential that this Court find the time to
clarify whether the views of the nine pro-access cir­
cuits, or the Tenth and Eleventh Circuits henceforth
should inform the balancing of the societal interest in
procuring accurate judgments against the need for
finality.

30. Prost v. Anderson,, supra.
31. McCarthan v. Dir. of Goodwill Industries-Suncoast, supra.

23
B. The Supreme Court’s guidance is needed
to elucidate what circumstances may
render the remedy of an initial §2255
motion inadequate or ineffective.
In Prost v. Anderson, 636 F.3d 578, the Tenth Cir­
cuit ruled that the appropriate metric was whether
the prisoner’s arguments could have been raised in his
initial §2255 motion. As long as a prisoner was given
a single opportunity to test the lawfulness of his de­
tention, absent new evidence, or new constitutional
rulings, nothing rendered relief under §2255 inade­
quate or ineffective. Id. at 585. According to Prost, one
of the rare instances where an initial §2255 petition
would be “inadequate or ineffective to test the legality
of the [prisoner’s] detention”32 would occur when the
original sentencing court had been abolished, such as
following the dissolution of a court martial. Id. at 588.
The Prost majority further held that “[fjederal
prisoners seeking to take advantage of new rulings of
constitutional magnitude that would render their con­
victions null and void are not always allowed to do so
in second or successive motions.” Id. at 587.
The majority went on to provide that:
Whether a statutory interpretation argument
is rejected on the basis of a newly crafted but
deficient test, or by application of an old but
equally bad test found in circuit precedent
makes no difference.
Legal error has
occurred. And, whenever legal error occurs it
may very well mean circuit law is inadequate
or deficient. But that does not mean the §2255
32. 28 U.S.C. §2255(e).

24
remedial vehicle is inadequate or ineffective to
the task of testing the argument.
Id. at 590.
While declining to adopt the “novelty” and “erro­
neous circuit foreclosure“ tests employed by sister cir­
cuits, the Prost majority nevertheless noted that the
savings clause may be available when the application
of §2255(h)’s bar against a second or successive motion
for collateral review would seriously threaten to render
the §2255 remedial process unconstitutional: “Were no
other avenue of judicial review available for a party
who claims that s/he is factually or legally innocent as
a result of a previously unavailable statutory
interpretation, we would be faced with a thorny
constitutional issue.” Id. at 593, quoting In re Dorsainvil, 119 F.3d 245, 248 (3d Cir. 1997).
The Tenth Circuit further acknowledged the im­
portance of considerations of “whether, when, and how
the application of §2255(h)’s limits on second or suc­
cessive motions might (ever) raise a serious constitu­
tional question.” Id. at 594. Thus, Prost only fore­
closed two avenues through the savings clause, “novel­
ty” and “erroneous circuit foreclosure,” leaving at least
a third open for future litigants, to wit “constitutional
avoidance.” Id. at 596.
But, Prost left unanswered the question what
forms of interference by the executive branch or
judiciary might render relief under §2255 inadequate
or ineffective, so as to permit access to this third
avenue of “constitutional avoidance. ”
Nor did Prost address the constitutional concerns
implicated when a prisoner is incarcerated for conduct

25
that never was criminalized in the first place, as op­
posed to subsequently decriminalized pursuant to a
novel interpretation of, or change in statutory law. A
person imprisoned under the former circumstances
could conceivably allege violations of the Due Process
Clause, the Eight Amendment, and even the Suspen­
sion Clause.
Presumably a consistent interpretation of the
savings clause in a manner that bars judicial review
of factual innocence claims would ultimately raise
serious questions about the constitutionality of the
AEDPA amendments to §2255. Prost, actually hints
at the potential for challenging the constitutionality of
§2255: “[U]nless and until Congress’s currently
expressed balance can be said to violate the
Constitution,” the courts must interpret the statute as
it currently reads. Id. at 597. Thus, by its construction
and application of §2255 in Prost and in this case, the
Tenth Circuit appears to have intended to incentivize
the Supreme Court and Congress to address whether
any post-conviction relief should be available to
federal defendants outside the confines of §2255(h).33

33. See generally Lauren Staley, Inadequate and Ineffective?
Factual Innocence and the Savings Clause of §2255, 81
U.Cin.L.Rev. 1149, 1165-67 (2013).

26
C. Nothing in Prost v. Anderson or the
language of the AEDPA suggests that
Congress intended to impose the
AEDPA’s filing restrictions on coram
nobis petitioners at liberty.
In this published case, as well as in unpublished
decisions,34 the Tenth Circuit has expanded Prost to
encompass coram nobis petitioners at liberty, not
otherwise subject to the constraints of the AEDPA.
This amounts to nothing less than a judicial abroga­
tion of the All Writ’s Act, since, according to Prost, in­
stances where the initial §2255 motion was inade­
quate or ineffective to test the legality of a defendant’s
detention are limited to cases where the original sen­
tencing court has ceased to exist. Id. at 588.
However, Prost involved an incarcerated defend­
ant, subject to the filing restrictions of the AEDPA and
§2255(h), and not a coram nobis petitioner at liberty.
Prost attempted to use the savings clause of §2255(e)
to file a second, successive §2255 petition to advance
a claim of factual innocence based on a novel Supreme
Court interpretation of statutory law.35 Neither the
Prost majority, nor the dissent, mentioned the writ of
error coram nobis, or referenced alternate forms of
collateral relief under the All Writ’s Act, 28 U.S.C.
§1651.
The plain statutory language of 28 U.S.C. §2255 (a)
and (e) excludes coram nobis petitioners at liberty
from the ambit of Prost:
§2255(a) limits the

34. See e.g. United States v. Perceval; United States v. Vasquez;
United States v Ricketts, n.6, supra.
35. United States v. Santos, 553 U.S. 507 (2008).

27
applicability of §2255 to “prisoner[sJ in custody under
sentence of a court established by Act of Congress,”
and the savings clause of §2255(e) expressly refers to
“a prisoner who is authorized to apply for relief” to
“test the legality of his detention.” None of these cir­
cumstances pertain to coram nobis petitioners at
liberty who seek to clear their names from the stigma
of an erroneous felony conviction, rather than chal­
lenging a sentence which they currently are serving.
Other sections of the AEDPA are similarly devoid
of references to alternate forms of relief, such as under
the All Writ’s Act, since the purpose of the AEDPA is
to limit abusive habeas writs by prisoners challenging
their detention and custody:36 “The Supreme Court
has made it pellucid that section 2255 does not
preempt the entire array of common-law writs author­
ized under the All Writs Act, 28 U.S.C. § 1651.”
Trenkler v. United States, 536 F.3d 85, 97 (1st Cir.
2008), relying on United States v. Morgan, 346 U.S.
502, 510 (1954). Consequently, the AEDPA’s “gatekeeping requirements are not necessary in legitimate
coram nobis cases,” as “few defendants who have al­
ready completely served their sentences continue to
have reasons to challenge their conviction or sen­
tence.” United States v. Kwan, 407 F.3d 1005, 1011
(9th Cir. 2005).

36. Melissa L. Tarab: Case Comment, Suffolk Law Review, Vol.
XLIL361, 365 (2009).

28
D. A post hoc amendment of a criminal
charge for which a defendant already has
served out his sentence should excuse
any neglect under the abuse of the writ
doctrine.
InMcCleskey v. Zant, 499 U.S. 467 (1991), the Su­
preme Court addressed the extent to which the com­
mon law abuse of the writ doctrine limits availability
of second or successive petitions for habeas relief: To
excuse his failure to raise a claim earlier, a defendant
must show cause for this failure, e.g. that he was im­
peded by some objective factor external to the defense,
such as (1) interference by government officials ren­
dering compliance with procedural rules impracti­
cable, (2) that the factual or legal basis for a claim was
not reasonably available to counsel, or (3) constitu­
tionally ineffective assistance of counsel. Id. at 493-94.
Once the defendant has established cause, he must
also show ‘actual prejudice’ resulting from the errors
of which he complains. Id. at 494. If the defendant
cannot show cause, his failure to raise the claim ear­
lier may nonetheless be excused if he can show that a
fundamental miscarriage of justice would result from
the failure to entertain the claim, such as the convic­
tion of a factually innocent person. Id. at 494-95.
The abuse of the writ doctrine is derived from its
common law progenitor res judicata. See id. 479-90
(analyzing the genealogy of the abuse of the writ doc­
trine under common law). While res judicata generally
is harsher in terms of finality of judgments, the pres­
ence of interparty extrinsic fraud, and fraud on the
court nevertheless allows a party to attack an other­
wise final judgment.

29
In United States v. Throckmorton, 98 U.S. 61
(1878), the Supreme Court provided that extrinsic
fraud could undermine a judgment “where, by reason
of something done by the successful party to a suit,
there was in fact no adversary trial or decision of the
issue in the case
Id. at 65. Hence, where “there
has never been a real contest in the trial or hearing of
the case because of fraud, the fraud is extrinsic and
relief will lie.” Id. at 66.
The distinction between extrinsic and intrinsic
fraud as grounds for post-judgment relief has become
blurred over the years, rendering the distinction obso­
lete:37 Thus, in egregious cases, the Supreme Court
has used the fraud on the court doctrine to remedy in­
trinsic fraud. See Hazel-Atlas Glass Co. v. HartfordEmpire Co., 322 U.S. 238, 250-51 (1944), overruled on
other grounds by Standard Oil of Cal. v. United States,
429 U.S. 17 (1976). The fraud on the court doctrine
has been applied to misconduct both by judges and
attorneys to overcome the bar otherwise imposed by
res judicata. Id. at 250.
Applying the doctrines of extrinsic fraud and
fraud [by] the court by analogy to this case, the integ­
rity of the judgments of both the district court and the
Tenth Circuit has been nullified by the post hoc
amendment of the criminal charge Dr. Miles origi­
nally had pleaded guilty to and been convicted of.
Therefore, any neglect in raising his claims earlier
should be excused by these post hoc amendments,
which represent interference by government officials
37. See generally Dustin B. Benham, Twombly and Iqbal Should
(Finally) Put the Distinction between Intrinsic and Extrinsic
Fraud out of Its Misery, 64 SMU L. Rev. 649 (2011).

30
that rendered the factual and legal basis for his claim
unavailable in his initial §2255 petition, as contem­
plated by this Court in McCleskey. Id. at 493-94.
Here, rather than restoring the parties to their
original bargaining positions by vacating the convic­
tion, rescinding the plea agreement and obtaining a
new indictment where the charging errors had been
corrected, the district court and government cut
procedural corners to safeguard their conviction.
Thus they claimed that Dr. Miles, at his June 2009,
Rule 11 Colloquy, despite the conceded charging
errors, knew all along that the government had meant
to charge him with a completely different crime, two
years in the future.
E. Contract law principles should be
consistently applied to render plea
agreements on par with commercial
contracts.
In Santobello v. New York, 404 U.S. 257, 260
(1971), this Court recognized that plea bargaining “is
an essential component of the administration of jus­
tice.” In Lafler u. Cooper, 566 U.S. 156, 169-70 (2012),
this Court acknowledged that the U.S. version of
criminal justice for the most part is a system of pleas,
not a system of trials.
Justice Brennan, in his dissent in Ricketts v.
Adamson, 483 U.S. 1, 16 (1987), advocated the idea of
plea agreements as constitutional contracts:
This Court has yet to address in any
comprehensive way the rules of construction
appropriate for disputes involving plea
agreements. Nevertheless, it seems clear that
the law of commercial contract may in some

31
cases prove useful as an analogy or point of
departure in construing a plea agreement, or
in framing the terms of the debate, k k k The
values that underlie commercial contract law,
and that govern the relations between
economic actors, are not coextensive with
those that underlie the Due Process Clause,
and that govern relations between criminal
defendants and the State. Unlike some
commercial contracts, plea agreements must
be construed in light of the rights and obli­
gations created by the Constitution. * * * 38
Federal courts of lower instance have likewise,
occasionally found that plea agreements are governed
or strongly influenced by contract law, with the Due
Process Clause sometimes providing added protection.
Some courts have further applied the commercial
contract law doctrines of mutual mistake of fact39 and
frustration of purpose.40 Other courts have even held
the government to a greater degree of responsibility
for imprecisions or ambiguities in plea agreements
compared to commercial contracts.41
Pure contract law, unadulterated by amorphous
constitutional doctrines which are incapable of prin­
cipled and consistent application (as evident from
this case), is superior for enforcing the rights of plea

38. See generally Miller, Colin, Plea Agreements as Constitutional
Contracts (July 5, 2017), ssrn.com/abstract=2997499.
39. United States v. Bradley, 381 F.3d 641, 648 (7th Cir. 2004).
40. United States v. Bunner, 134 F.3d 1000, 1004-5 (10th Cir.
1998).
41. United States v. Harvey, 791 F.2d 294, 295 (4th Cir. 1986).

32
bargaining defendants: It is broader in scope and of­
fers greater and more predictable protection than the
Constitution.42 But, due to the judiciary’s aversion
against rendering criminal defendants on par with
civil litigants, contract law remains ineffective in
enforcing the terms of plea agreements between de­
fendants and the government: Contractual provisions
are thus blatantly suspended or ignored whenever
antagonistic to the interests of the judiciary or
favorable to criminal defendants, as in this case.43
In light of this, contract law principles should not
simply be selectively applied or used by analogy, but
employed consistently as the superior body of law
governing the enforcement of plea agreements. There
is no reason why an individual who bargains with his
liberty and reputation should receive fewer contrac­
tual protections than an individual or business in the
commercial marketplace that buys products or ser­
vices.44
Had Dr. Miles been convicted following a jury
trial, the post hoc amendment of the charging terms
would have rendered his conviction reversible per se.45
42. See generally Michael D. Cicchini, Broken Government
Promises: A Contract-Based Approach to Enforcing Plea Bar­
gains, 38 N.M.L.Rev. 159 (2008).
43. Julian A. Cook, III, All Aboard! The Supreme Court, Guilty
Pleas, and the Railroading of Criminal Defendants, 75
U.Colo.L.Rev. 863, 889 (2004).
44. See generally David Aram Kaiser, Note, United States v.
Coon: The End of Detrimental Reliance for Plea Agreements?, 52
Hastings L.J. 579 (2001).
45. In the Tenth Circuit, the standard of review for objected to
amendments occurring at trial is de novo. United States v.
Sprenger, 625 F.3d 1305, 1307 (10th Cir. 2010). Constructive

33
Furthermore, Rule 7(e) of the Federal Rules of Crimi­
nal Procedure (disregarded by the district court and
Tenth Circuit despite Dr. Miles’ timely objections),
should have precluded any post-sentencing amend­
ment of the criminal charges, regardless of whether he
had been convicted pursuant to a guilty plea or a jury
trial. In addition, this Court recently, in Class v.
United States, 138 S.Ct. 798, 804 (2018), reaffirmed
that a guilty plea, by itself, does not vitiate a post­
conviction challenge based on that the facts alleged
and admitted by a defendant in conjunction with his
guilty plea fail to state an offense, as in this case.
Under contract law principles, a purported unilat­
eral or mutual mistake, used as a pretext to justify
post-conviction amendments of a criminal charge,
would entitle defendants like Dr. Miles’ to have their
plea agreement rescinded and their conviction
reversed. See Restatement (Second) of Contracts §152
& §153 (A unilateral or mutual mistake that has a
material effect on the agreed exchange of
performances renders the contract voidable by the
adverseley affected party unless he bears the risk of
the mistake). The post hoc oral amendments also
violated the Plea Agreement’s integration clause, and
amendments at trial are reversible per se. United States v. Farr,
536 F.3d 1174, 1185 (10th Cir. 2008). "[T]he language employed
by the government in its indictments becomes an essential and
delimiting part of the charge itself, such that if an indictment
charges particulars, the jury instructions and evidence intro­
duced at trial must comport with those particulars." Id. at 1181.
“[A] constructive amendment occurs when the indictment alleges
a violation of the law based on a specific set of facts, but the evi­
dence and instructions then suggest that the jury may find the
defendant guilty based on a different, even if related, set of facts.”
United States v. Miller, 891 F.3d 1220, 1234-36 (10th Cir. 2018).

34
thereby materially breached and voided the Plea
Agreement in its entirety.
The frustration of purpose doctrine would have
compelled the same result: Dr. Miles’ charge bargain
pertained exclusively to having submitted incorrect
biographical information in an INS form Affidavit of
Support in support of his wife’s application for
adjustment of status in New York, in February 2002.
As readily conceded by the Tenth Circuit, his guilty
plea did not encompass a different crime committed 7
months earlier. See Miles, 546 Fed. Appx. at 733,
supra, p.17. He fully performed his obligations under
the plea agreement by serving out his sentence. His
initial §2255 petition did not violate the terms of the
Plea Agreement, because it conferred an express
contractual right to collaterally challenge the
conviction if the district court’s sentence exceeded the
applicable sentencing guideline range.
The post hoc oral modifications were also
precluded by the parol evidence rule, which prohibits
a court from considering evidence of terms outside a
fully integrated, written plea agreement. See United
States v. Rockwell Int’l Corp., 124 F.3d 1194, 1199
(10th Cir. 1997). See also United States v. Gamble, 917
F.2d 1280, 1282 (10th Cir. 1990)(The plain and
unambiguous terms of a plea agreement may not be
changed by parol evidence). Thus, in the absence of
contrary evidence, as in the instant case, a writing
that appears integrated will be considered as such.
See Rockwell at 1200, quoting Restatement (Second) of
Contracts, §209(3).
Moreover, a court, when interpreting a plea
agreement, should construe any ambiguities against
the government as the draftsman. See e.g. United

35
States v. Trujillo, 537 F.3d 1195, 1200 (10th Cir. 2008);
United States v. Guzman, 318 F.3d 1191, 1195 (10th
Cir. 2003). Thus, any ambiguity or “inconsequential”
drafting error, serendiptously surfacing more than
two years after Dr. Miles’ guilty plea and conviction,
should have been interpreted contra proferentem,
against the government. Instead, the Tenth Circuit
permitted the government to take yet another
mulligan by interpreting the government’s purported
drafting errors against the defendant in order to
salvage the conviction.
II.

THIS CASE MERITS SUPREME
COURT REVIEW

A. The issues presented are recurring and
important because they concern all
federal defendants.
Currently the United States incarcerates more
than 180,000 federal defendants. Under the AEDPA,
a federal defendant has only one year from the date
his conviction becomes final to file an initial habeas
motion under 28 U.S.C. §2255. Any subsequent mo­
tion will be construed as a second or successive habeas
petition, subject to the constraints of §2255(h).
Under §2255(h), neither a change in statutory law
that decriminalizes an offense, nor a conviction for
conduct that never was criminalized in the first place,
will entitle a prisoner to file a second or successive ha­
beas petition. Consequently, all federal circuits,
except the Tenth (recently joined by the Eleventh), in
various ways circumvent §2255(h) by resorting to the
savings clause of §2255(e) to avoid constitutional is­
sues resulting from the absence of a vehicle to address
claims of factual innocence or other grave procedural

36
errors. This has resulted in the current 4-way circuit
split regarding the availability of second or successive
habeas petitions.
The Tenth Circuit, in Prost v. Anderson, adopts
the most extreme position among the circuits by limi­
ting the availability of second or successive petitions
to instances where the sentencing court has ceased to
exist: The mere circumstance that a defendant was
denied relief due to legal or factual errors, no matter
how egregious, is irrelevant as long as the defendant,
at least theoretically, had access to the remedy of an
initial §2255 petition.
In the instant case, the Tenth Circuit, in further­
ance of finality, has expanded Prost by imposing the
filing limitations under §2255(h) on coram nobis
petitioners at liberty. This renders the current circuit
split relevant to all federal defendants, whether im­
prisoned or not.
However, both Prost and this case invites Con­
gress and the Supreme Court to weigh in on what cir­
cumstances, if any, might permit a second or succes­
sive collateral challenge to a conviction: Upon review,
this Court might well affirm the Tenth Circuit’s ruling
in this case, and limit federal defendants to one, and
only one post-conviction challenge of their conviction
via an initial §2255 motion, regardless of their cus­
tody status. This would, at long last, accomplish the
goal of the executive branch to abolish the coram nobis
writ in its entirety as an annoying anachronism that
subverts the streamlined operation of a totalitarian
police state.
Whether contract law principles should govern
the enforcement of plea agreements to the same ex­
tent as commercial contracts impacts the more than

37
95% of federal defendants who settle their cases by
guilty pleas. Despite the wide-ranging impact on plea
bargaining, the Supreme Court has never directly ad­
dressed whether plea bargains by criminal defendants
should be on par with commercial contracts. Thus, at
present, contract law principles are applied inconsis­
tently by the judiciary, particularly when favorable to
defendants. But, if plea agreements are merely advi­
sory and non-binding on the government, defendants
would be well advised to always go to trial to preserve
what limited constitutional rights remain to them as
citizens accused. Presumably the resulting pre-trial
delays would bankrupt the present American judicial
system.
B. Since this case is not fact bound, it
represents an ideal vehicle for
addressing what circumstances, if any,
might justify second and successive
collateral attacks on convictions.
First, this case is not fact bound because the Tenth
Circuit’s published opinion is premised on extending
Prost v. Anderson to former defendants no longer in
custody. According to Prost, it is irrelevant what legal
or factual errors were committed by a court when dis­
missing the initial §2255 petition, as long as the reme­
dy under §2255 was at least theoretically available be­
cause the original sentencing court remained in exis­
tence. The case has been fully briefed at the district
court and appellate level, and the government has
been given a full opportunity to develop the record.
The subsidiary question whether plea bargaining
criminal defendants should be afforded the same
rights under contract law as civil litigants is similarly

38
not fact bound and has also been fully briefed below.
The contractual rights and obligations of the govern­
ment and the petitioner are clearly established on the
record, as they are contained in the Superceding In­
formation, the Plea Agreement and the government’s
stipulations at the Rule 11 Colloquy.
Second, this case represents a clean vehicle to ad­
dress whether the views of the nine pro-access cir­
cuits, or the views of the Tenth and Eleventh Circuits
should prevail. This will be a policy decision within
the exclusive purview of the Supreme Court and Con­
gress that is independent of the substantive law
merits unique to this case.
Third, any relief sought by the petitioner will not
prejudice the government, since it has received the
full benefit of its bargain by the petitioner’s perfect
performance of all his obligations under the plea
agreement. If this Court ultimately favors the views
of the pro-access circuits, the petitioner merely asks
that his plea agreement be rescinded, his conviction
reversed, and the parties restored to their initial
bargaining positions.

39
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.
Respectfully submitted,

ALEXANDER C. MILES, ESQ.
Chairez La w Firm
P.O. Box 1954
Pahrump, NV 89041
(702) 281-0681
acmilesesq@gmail.com
Petitioner

